 PEGASYS ACCOUNT BALANCE AND
     TRANSACTION ANALYSIS:
  CONSTRUCTION IN PROGRESS –
    PUBLIC BUILDINGS SERVICE
REPORT NUMBER: A040106/P/F/R05007
           MAY 9, 2005
GSA/OIG/A040106/P/F/R05007




                       Pegasys Account Balance and Transaction Analysis:
                       Construction In Progress – Public Buildings Service
                              Report Number: A040106/P/F/R05007

                                               TABLE OF CONTENTS


                                                                                                                         Page

EXECUTIVE SUMMARY ................................................................................................ 1

INTRODUCTION............................................................................................................. 3

Background ..................................................................................................................... 3
Objective, Scope, and Methodology................................................................................ 4

RESULTS OF AUDIT ..................................................................................................... 5

Finding 1: The CIP statistical sample should be selected from a reconciled balance in
order to ensure the completeness and existence of transactions.................................... 5
Finding 2: The sampling methodology needs to be designed to ensure greater precision
over the CIP estimate...................................................................................................... 6
Finding 3: Previously identified errors need to be corrected timely to ensure that data is
properly treated. .............................................................................................................. 9
Finding 4: Documentation of internal controls over the financial reporting of CIP should
be improved. ................................................................................................................. 10

RECOMMENDATIONS................................................................................................. 11

MANAGEMENT COMMENTS ...................................................................................... 11

INTERNAL CONTROLS ............................................................................................... 11

APPENDIX A – MANAGEMENT RESPONSE ........................................................... A-1

PBS Management Response to Draft Report...............................................................A-1
OCFO Response to Draft Report .................................................................................A-2

APPENDIX B – REPORT DISTRIBUTION ................................................................. B-1
GSA/OIG/A040106/P/F/R05007



                  Pegasys Account Balance and Transaction Analysis:
                  Construction In Progress – Public Buildings Service
                         Report Number: A040106/P/F/R05007

                                     EXECUTIVE SUMMARY

Purpose

The purpose of this audit was to provide a basis for reporting on the internal controls
over the quarterly financial statement reporting process for the General Services
Administration (GSA). Specifically, we focused on the controls over the Construction in
Progress1 (CIP) statistical sample adjusting journal entry as recorded in the Federal
Buildings Fund (FBF). The objective of our audit was to determine if sufficient evidence
exists that controls are in place and functioning to ensure that management’s assertions
related to CIP are properly reflected in the quarterly financial statements as of March
31, 2004.

Background

GSA’s Public Buildings Service (PBS) initiates several significant adjusting journal
entries each quarter to correct the CIP account balance in Pegasys, GSA’s accounting
system of record. One of the largest adjusting entries made to CIP is based on a
random statistical sample performed to assess the accuracy of data in the Real
Property Accounting and Depreciation System (RPADS), which interfaces Pegasys.
From the results of this statistical sample, PBS estimates the needed worksheet
adjustments to correct the CIP account balance for errors discovered.

Results in Brief

We found that PBS should strengthen its internal controls over the data used in the
preparation of the statistical sample as part of its quarterly financial statement reporting
process for CIP. During our evaluation of CIP and the related statistical sample for
March 31, 2004, we found that PBS may not have obtained sufficient, relevant, and
reliable data on which to base its statistical sample for purposes of estimating CIP.
Specifically, we found that PBS did not ensure that the population used in the CIP
statistical sample was complete, the sampling methodology was sufficient, and the data
used in the sample was properly treated. Additionally, we determined that PBS should
improve its documentation of internal controls over the financial reporting of CIP.




1
 The United States General Ledger uses the term Construction in Progress, but the General Services
Administration presents this account as Construction in Process in the Quarterly Financial Statements as
of March 31, 2004 and the Fiscal Year 2003 Financial Statements. The Office of Inspector General will
use the term Construction in Progress to refer to the account Construction in Process.

                                                   1
GSA/OIG/A040106/P/F/R05007




Recommendations

We recommend that the Commissioner of PBS take steps to improve the CIP statistical
methodology in order to obtain sufficient, relevant, and reliable data for purposes of
estimating CIP. Furthermore, the Commissioner of PBS, in conjunction with the Chief
Financial Officer, should improve controls to ensure that errors discovered in the sample
are corrected timely. We also recommend that all controls related to the financial
reporting of CIP be properly documented in accordance with appropriate standards.




                                            2
GSA/OIG/A040106/P/F/R05007




                                    INTRODUCTION

This report presents the results of our audit of GSA’s CIP statistical sample adjusting
journal entry as recorded in the adjusted trial balance for the FBF as of March 31, 2004.
The audit was conducted in coordination with the overall Pegasys Account Balance and
Transaction Analysis Audit, and the results will be used in the preparation of our report
on the internal controls over GSA’s quarterly financial reporting process.

Background

PBS initiates several significant adjusting journal entries each quarter to correct the CIP
account balance in Pegasys, GSA’s accounting system of record. One of the largest
adjusting entries made to CIP is based on a random statistical sample performed to
assess the accuracy of data in the RPADS, which interfaces Pegasys. From the results
of this statistical sample, PBS estimates the needed worksheet adjustments to correct
the CIP account balance for errors discovered. PBS categorizes these errors into two
types: substantially complete errors and write-off errors. Substantially complete errors
are projects that are substantially complete and should have been transferred to
Property & Equipment (P&E); write-off errors are projects that do not meet the criteria
for capitalization and should have been expensed.

For the quarterly financial statements as of March 31, 2004, PBS selected a sample of
200 projects for evaluation. Officials from PBS’s Office of the Chief Financial Officer,
Financial Operations Division (PFF) researched each project to determine if the project
was properly classified in CIP. If not, PFF officials then determined if the project should
have been reclassified to P&E or should have been expensed. For a project where a
classification could not readily be determined, PFF officials issued a survey to the
responsible PBS regional office. PBS regional officials completed the survey by
reviewing the project’s status to determine the proper classification. Based on the
results of this survey, PFF officials determined the error rates of the sample. These
error rates were subsequently projected to the unadjusted population in RPADS to
determine the total amount of CIP that should have been reclassified to P&E or written
off to expense.

For the quarter ended March 31, 2004, the CIP statistical sample resulted in a
reclassification of $286.3 million from CIP to P&E and a write-off of $36.5 million to
expense. These adjustments reduced the total RPADS balance of $2.1 billion by
$322.8 million, or 15.45 percent.




                                             3
GSA/OIG/A040106/P/F/R05007




Objective, Scope, and Methodology

The objective of our audit was to answer the following question as related to
Construction in Progress:

Does sufficient evidence exist that controls are in place and functioning to ensure
management’s assertions related to Construction In Progress are properly
reflected in the quarterly financial statements as of March 31, 2004?

Based on the significance of the CIP statistical sample adjusting journal entry in relation
to the overall balance for CIP, we limited our scope to the controls over the CIP
statistical sample for March 31, 2004.

To accomplish our objective, we:

 Reviewed policies and procedures related to CIP;
 Reviewed the documentation supporting financial statement adjustments related to
  CIP;
 Interviewed Office of the Chief Financial Officer (OCFO) and PFF officials to gain an
  understanding of the CIP Cycle;
 Reviewed the methodology and evaluated the process for developing the CIP
  statistical sample adjusting journal entry;
 Performed substantive analytical procedures on the variance for CIP and the CIP
  statistical sample adjusting journal entry;
 Performed substantive tests on the CIP statistical sample;
 Reviewed the effectiveness of PBS’s systems of accounting and internal control over
  financial reporting for CIP as of March 31, 2004, based on the internal control
  objectives in Office of Management and Budget Bulletin No. 01-02 Audit
  Requirements for Federal Financial Statements; and
 Performed tests of controls on attributes for substantial completion, estimated
  completion, and project cancellation.

The audit was conducted from August to November 2004 in accordance with generally
accepted government auditing standards.




                                             4
GSA/OIG/A040106/P/F/R05007




                                      RESULTS OF AUDIT

We found that PBS should strengthen its internal controls over the data used in the
preparation of the statistical sample as part of its quarterly financial statement reporting
process for CIP. During our evaluation of CIP and the related statistical sample for
March 31, 2004, we found that PBS may not have obtained sufficient, relevant, and
reliable data on which to base its statistical sample for purposes of estimating CIP.
Specifically, we found that PBS did not ensure that the population used in the CIP
statistical sample was complete, the sampling methodology was sufficient, and the data
used in the sample was properly treated. Additionally, we determined that PBS should
improve its documentation of internal controls over the financial reporting of CIP.

Finding 1: The CIP statistical sample should be selected from a reconciled
balance in order to ensure the completeness and existence of transactions.

PFF officials selected the CIP statistical sample from the CIP balance reported in
RPADS, but this balance did not agree to the CIP balance reported in Pegasys as of
March 31, 2004. In doing so, the population from which the statistical sample was
selected may not have included all transactions that occurred during the period, or may
have included transactions that had occurred after the end of the quarterly reporting
period. As a result, the adjusting journal entry that records the results of the CIP
statistical sample may have been overstated for that same period.

As of March 31, 2004, Pegasys reported a balance in CIP of $2,059,465,870.51. Shortly
after March 31, 2004, the OCFO downloaded the unadjusted balance in CIP of
$2,088,833,901.11 from RPADS. As a result, a difference of $29,368,030.60 existed
between the CIP balances reported in Pegasys and RPADS, however, this discrepancy
was not reconciled prior to the execution of the sample. By not performing this
reconciliation, the population used by PBS to select the statistical sample may not have
been complete or may have included transactions which may not have existed as of
March 31, 2004.

The CIP statistical sample for March 31, 2004, resulted in an error rate of 15.29 percent.
PBS subsequently projected this error rate to the CIP balance in RPADS, resulting in a
reclassification of $286,265,122.34 from CIP to P&E on the Balance Sheet. However,
this projection may have been in error because PBS did not perform a reconciliation
between the CIP balances in RPADS and Pegasys. If the Pegasys balance was
correct, then the PBS reclassification estimate of CIP may have been overstated by
approximately $4 million2. This internal control deficiency reduced the effectiveness of

2
  The Pegasys CIP balance represented 98.59 percent of the RPADS balance. Applying this percentage
to the reclassification of $286,265,122.34 made by PBS would result in an adjustment of $282,228,784.12
(98.59% x 286,265,122.34 = $282,240,368.20) for a difference of $4,024,754.13 ($286,265,122.34-
282,240,368.20 = $4,024,754.13).

                                                  5
GSA/OIG/A040106/P/F/R05007



the sample and the reliability of the estimate for CIP as of March 31, 2004. Although the
difference may not have been material for this quarterly reporting period, the deficiency
in internal controls could result in a material misstatement in future reporting periods.

To ensure that the population from which the CIP statistical sample is selected is
complete, PBS should reconcile the balance of CIP reported in RPADS to the balance
reported in the Pegasys trial balance prior to the selection of the sample. Any estimate
of CIP should be properly determined based on the reconciliation or mathematical
relationship between the two balances.

Finding 2: The sampling methodology needs to be designed to ensure greater
precision over the CIP estimate.

The statistical methodology employed by PBS to estimate the actual CIP balance may
not have been sufficient to reasonably ensure that the CIP balance reported on the
financial statements was reliable. During our testing, we found that several factors in
the PBS CIP sampling methodology hindered the projection of a reliable estimate of the
CIP balance. Specifically, prior to the determination of the sample size, PBS should
have considered the following:

      Confidence Level and Precision

       PBS used a sample size of 200 projects to prepare its statistical sample to
       estimate the actual value of CIP. PBS indicated that this sample size was
       chosen because 200 projects represented a 100 percent increase over the
       sample size used in the previous statistical sample and PBS wanted to test at
       least 5 percent of the approximately 3600 projects in RPADS. However, this
       rationale did not factor in a confidence level and precision prior to the selection of
       the sample which would have provided a predetermined sample size and would
       have reasonably ensured that the variance between the actual value of CIP and
       the estimated value would not exceed a significant amount that would lead users
       of the financial statements to reach different conclusions about the financial
       statements.

      Stratification of Population

       PBS employed a simple random sample that allowed equal opportunity for
       selection of all projects without stratification between dollar value or type of
       project. In doing so, PBS did not take into consideration that the CIP population
       included significantly different characteristics. If PBS would have stratified these
       different characteristics prior to determining the sample size, PBS may have
       reduced the size of the CIP sample while still providing an effective and reliable
       estimate.




                                              6
GSA/OIG/A040106/P/F/R05007



Federal Accounting Standards Advisory Board Concept #1 states that “financial
reporting should be reliable; that is, the information presented should be verifiable and
free from bias and should faithfully represent what it purports to represent. To be
reliable, financial reporting needs to be comprehensive. Nothing material should be
omitted from the information necessary to represent faithfully the underlying events and
conditions…” To achieve this, PBS should ensure that a sound statistical sampling
methodology is used to develop the estimated adjustment to CIP. Per the Government
Accountability Office’s (GAO) Using Statistical Sampling (GAO/PEMD-10.1.6), sample
size should be determined based on three factors: confidence level, precision, and the
standard deviation based on the characteristics of the population.

As stated above, PBS did not define the confidence level or precision and adequately
analyze the characteristics of the population prior to selecting the sample size for
determining the estimated adjustment to CIP that would reasonably ensure a reliable
estimate. Without defining confidence level or precision, the sample of 200 projects
may not have been sufficient to determine reasonableness. Furthermore, a majority of
the projects selected were not materially significant to the projected adjustment because
PBS did not analyze the characteristics of the population prior to selecting the sample
size.

Our review found that over 95 percent of the CIP absolute dollar balance reported in
RPADS consisted of projects with balances in excess of $100,000 (see Table 1).

   Table 1: Break Down of 2nd Quarter Fiscal Year 2004 RPADS balance for CIP
                              (In Absolute Dollars)
Category of CIP                  Projects      Total Value        % Of Total
Balances <= to Zero                355         $    50,123,933.58     2.29%
Balances > Zero <= $100,000      2,509         $    46,134,154.08     2.11%
Balances > $100,000                725         $ 2,092,823,680.61    95.60%
Total                            3,589         $ 2,189,081,768.27   100.00%


PBS’s sample of 200 projects, however, represented only $176,379,483.35, or 8.44
percent, of the total RPADS balance. This was due primarily to the fact that of the 200
projects selected, 134 were projects with balances between $0 and $100,000. These
134 projects represented only $2,849,356.84, or 1.62 percent, of the dollar value of the
sample (see Table 2).




                                            7
GSA/OIG/A040106/P/F/R05007



           Table 2: Break Down of 2nd Quarter Statistical Sample Projects

Category of CIP                      Number of        Dollar Value        % Of Total
                                     Projects                             Dollar Value
                                                                          of Sample
Balances <= to Zero                   18              $    (2,679,797.85)        -1.52%
Balances > Zero <= $100,000          134              $     2,849,356.84          1.62%
Balances > $100,000                   48              $   176,209,924.36         99.91%
Total                                200              $   176,379,483.35       100.00%

By not taking into consideration the characteristics of the population, PBS selected a
sample comprised largely of insignificant projects. Accordingly, the resulting projection
could have been significantly influenced by the few large projects that were selected.
This was the case in the Fiscal Year 2003 CIP year-end account balance in which the
CIP projection was disproportionately influenced by one project. Furthermore, this
project was incorrectly identified as an error, resulting in a material misclassification of
the CIP balance. As discussed in our Alert Report on the Audit of Pegasys Account
Balance and Transaction Analysis: Construction in Progress (Report Number
A040106/P/F/W04001), issued on September 30, 2004, we determined that this
classification error existed between the balances reported for the CIP line item and the
P&E--Buildings line item detailed on the consolidated balance sheet in the Fiscal Year
2003 audited financial statements.

In addition, PBS used the overall RPADS population without stratifying it into the three
distinct types of CIP: Buildings, Improvements and Renovations, and Leasehold
Improvements. PBS estimated a total adjustment of $286 million for CIP and applied
this amount based on the percentage of the sample’s error attributable to each type of
CIP. This resulted in an estimated adjustment to CIP--Leasehold Improvements of
approximately $70 million; however, the trial balance for this account was only $8
million. As a result, PBS only adjusted CIP--Leasehold Improvements for the actual
error discovered in the sample and transferred the remaining projection to CIP--
Improvements and Renovations. Therefore, by not using stratification, PBS could not
reasonably project the adjustment.

The issues related to sampling methodology were brought to the attention of PBS
officials prior to the execution of the Fiscal Year 2004 year-end CIP statistical sample,
and were also discussed with GSA’s external auditor, PricewaterhouseCoopers LLP
(PwC). After consultation with PBS and PwC, a subsequent statistical sample was
prepared in coordination with PwC’s statisticians which produced significantly different
results. PwC recommended a statistical sample for September 30, 2004, employing
stratification techniques, a precision of 12.56 percent, and a confidence level of 95
percent. This methodology resulted in the selection of 142 projects, including 105 with
balances of at least $900,000, and 37 with balances less than $900,000. Using the
approach suggested by the PwC statisticians, PBS increased the selection of high-risk,
material projects by 700 percent over the March 31, 2004 CIP statistical sample. This

                                              8
GSA/OIG/A040106/P/F/R05007



substantial increase provided reasonable assurance that the CIP estimate used for
financial statement reporting purposes was reliable.

To increase the amount of coverage provided by the sample and the reliability of the
figures in CIP, PBS should continue to use and improve upon the methodology
developed for the September 30, 2004 financial statement reporting process. PBS
should also consider using the expertise of a statistician throughout the CIP estimation
process.

Finding 3: Previously identified errors need to be corrected timely to ensure that
data is properly treated.

Errors uncovered by monitoring and through the performance of the CIP statistical
sample in prior periods were not corrected in a timely fashion. As a result, these errors
remained part of the CIP population, which enabled some errors to be selected as part
of the March 31, 2004 sample, adversely impacting the results of the CIP estimate.

In our testing of the CIP balance reported in RPADS as of August 25, 2004, we found
that several projects identified as errors in the CIP statistical samples for the quarter
ended March 31, 2004 and the fiscal year ended September 30, 2003 continued to be
incorrectly classified in RPADS. For instance, PBS’s September 30, 2003 CIP
statistical sample identified sixteen projects that should have been classified as
substantially complete and transferred to P&E. However, of these sixteen projects, six
remained in the CIP balance reported in RPADS as of August 25, 2004.

Additionally, PBS used the unadjusted population of CIP from RPADS to select the
sample and estimate the projected adjustment. Partially completed multi-phase projects
or other previously identified errors that still required adjustment represented a
significant balance of the unadjusted population. To determine the CIP estimate, PBS
officials classified previously identified errors selected as correct in the CIP statistical
sample to ensure that the projection did not overestimate the effect of these errors by
adjusting CIP twice. In doing so, PBS calculated an error rate that may not have been
representative of the population, thereby reducing the reliability and effectiveness of the
estimated adjustment.

In order to be statistically valid, the multi-phase projects and other previously identified
errors should have been handled consistently in both the population and the sample.
One method for addressing this issue would have been to eliminate previously identified
errors and multi-phase projects from the population. This would have ensured that the
population only consisted of unknown projects and would have eliminated the possibility
of selecting previously identified errors or multi-phase projects, resulting in an error rate
that was more representative of the population and would have produced a more
reliable and effective CIP estimate.

To eliminate the need for adjustments to the population for the statistical sample, errors
should be corrected in a timely manner. While PBS has taken steps to correct several

                                              9
GSA/OIG/A040106/P/F/R05007



of the known errors, PBS, in conjunction with the OCFO, should implement a process
for correcting errors on a quarterly basis. However, until all known errors are corrected,
PBS should develop a methodology for treating these errors in the sampling process
consistently.

Finding 4: Documentation of internal controls over the financial reporting of CIP
should be improved.

PBS’s documentation of internal controls over CIP does not adequately describe the
controls used to ensure that the CIP process is operating effectively and efficiently.
Lack of appropriate documentation of controls may prevent PBS from monitoring the
policies and procedures used throughout the CIP cycle.

The internal control document prepared by PBS, Internal Control and Processes for
Accurate Construction Asset Accounts, does not adequately describe how transactions
are executed for project initiation, completion, and cancellation at the regional level.
Furthermore, the document does not describe the range of control activities used at the
regional level to ensure that project transactions are appropriately classified and
promptly and accurately recorded.

GAO's Standards for Internal Control in the Federal Government outline five standards
for internal control: control environment, risk assessment, control activities, information
and communications, and monitoring. The Standards for Internal Control in the Federal
Government defines the minimum level of quality acceptable for internal control in the
federal government. This guidance also describes the appropriate documentation of
transactions and internal control and states that internal control and all transactions, as
well as other significant events, need to be clearly documented. This documentation
should be readily available for examination. In addition, PBS will be required to comply
with OMB Circular Number A-123, Management’s Responsibility for Internal Control by
2006. OMB Circular Number A-123 incorporates the same principles outlined in the
Standards for Internal Control in the Federal Government.

To ensure that PBS monitors the policies and procedures used throughout the CIP
cycle, PBS should identify the control objectives necessary to reasonably ensure that
management’s assertions are accurately reported in the balances of CIP. The Internal
Control and Processes for Accurate Construction Asset Accounts document should be
updated to ensure that the controls in place at all levels of the CIP cycle have been
identified. These controls should be related to the control objectives set forth by
management and should be organized within the five components of internal control.




                                            10
GSA/OIG/A040106/P/F/R05007




                                 RECOMMENDATIONS

We recommend that the Commissioner of the Public Buildings Service:

1) Reconcile the balance of CIP reported in RPADS and the Pegasys trial balance prior
to the selection of the CIP statistical sample;

2) Define a confidence level, precision, and analyze the characteristics of the population
based on an appropriate level for financial reporting purposes prior to selecting the CIP
statistical sample;

3) In conjunction with the Chief Financial Officer, correct errors timely and develop a
methodology for treating known errors in the sample consistently; and

4) Prepare internal control documentation for the CIP process in accordance with the
Standards for Internal Control in the Federal Government.



                              MANAGEMENT COMMENTS

The Commissioner of PBS and the Deputy Chief Financial Officer for Financial Policy
and Operation have provided comments to this report, which have been included in their
entirety as Appendix A. Both the Commissioner and the Deputy Chief Financial Officer
concur with the findings of the report and have no further comments.


                                INTERNAL CONTROLS

For the fourth straight year, PwC reported the need to improve the controls over
transferring substantially complete CIP projects as a reportable condition in its Financial
Statement Audit Report. PwC determined that the underlying causes of these
misstatements included regional personnel not entering completion dates, not
expensing cancelled projects, and problems with archived projects. PBS has
implemented the CIP statistical sample to mitigate the underlying causes of
misstatements identified by PwC to determine the amounts to be reported in the
financial statements. Until PBS corrects the control deficiencies at the regional level,
the controls over the statistical sample should be strengthened in order to ensure that
the mitigating controls are sufficient.




                                            11
GSA/OIG/A040106/P/F/R05007




                    APPENDIX A – MANAGEMENT RESPONSE

                   PBS Management Response to Draft Report




                                    A-1
GSA/OIG/A040106/P/F/R05007



                    APPENDIX A – MANAGEMENT RESPONSE

                         OCFO Response to Draft Report




                                     A-2
GSA/OIG/A040106/P/F/R05007



                       APPENDIX B – REPORT DISTRIBUTION

Report Distribution                                                  Copies

Commissioner, Public Buildings Service (P)                             3

Chief Financial Officer (B)                                            3

Audit Follow-Up and Evaluation Branch (BECA)                           1

Assistant Inspector General for Auditing (JA)                          2

Assistant Inspector General for Investigations (JI)                    1

Deputy Assistant Inspector General for Real Property Audits (JA-R)     1




                                           B-1
